No. 19-697

 

 

In THE

Supreme Court of the United States

JAMES DWIGHT PaVvaTT,
Petitioner,
UY.

Tommy SHARP, INTERIM WARDEN,
OKLAHOMA STATE PENITENTIARY,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

CERTIFICATE OF SERVICE

I, Thomas G. Saunders, a member of the bar of this Court, hereby certify that, on
this 27th day of December, 2019, all parties required to be served have been served
copies of the Brief for Oklahoma Criminal Defense Lawyers as Amicus Curiae in
Support of Petitioner in this matter by overnight courier to the addresses below.

PETER KARANJIA JENNIFER L. CRABB

DLA PIPER LLP OFFICE OF THE ATTORNEY GENERAL
500 Eighth Street, NW 313 N.E. 21st Street

Washington, DC 20004 Oklahoma City, OK 73105

(202) 799-4000 (405) 521-3921
peter.karanjia@dlapiper.com fhe.docket@oag.ok.gov

WW J. AS

THOMAS G, SAUNDERS

WILMER CUTLER PICKERING
HALE AND DORR LLP

1875 Pennsylvania Ave., NW

Washington, DC 20006

(202) 663-6000

thomas.saunders@wilmerhale.com
